REPORT ON CONSOLIDATED FINANCIAL
STATEMENTS FOR FY 2007 AND FY 2006
        Department of Transportation

        Report Number: FI-2008-011
       Date Issued: November 13, 2007
           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Consolidated Financial                  Date:    November 13, 2007
           Statements for Fiscal Years 2007 and 2006, DOT
           Report Number: FI-2008-011
  From:    Calvin L. Scovel III                                   Reply to
                                                                  Attn. of:   JA–20
           Inspector General

    To:    The Secretary

           I respectfully submit the Office of Inspector General report on the Department of
           Transportation (DOT) Consolidated Financial Statements for Fiscal Years
           (FY) 2007 and 2006 (see Attachment). This year, our audit concluded that DOT’s
           consolidated financial statements are fairly presented, in all material respects, in
           conformity with generally accepted accounting principles. The clean (unqualified)
           opinion signals to the public that the Department has successfully overcome last
           year’s qualified opinion on the Construction in Progress (CIP) balance, which is a
           subcomponent of the Property, Plant, and Equipment line item on the
           Department’s balance sheet.

           Last year, KPMG LLP, under contract to us and under our supervision, rendered a
           qualified opinion on the Federal Aviation Administration’s (FAA) FY 2006
           financial statements because deficiencies in FAA’s accounting for CIP prevented
           FAA from providing adequate support to verify that reported CIP balances were
           reliable. Since FAA’s property, including CIP, represents about 95 percent of the
           Property, Plant, and Equipment line item on the Department’s consolidated
           balance sheet, the Department’s consolidated financial statements were similarly
           qualified. During FY 2007, FAA made a concerted effort to revise the CIP
           account balance, resulting in a clean opinion this year.

           The Department’s ability to regain a clean opinion on its consolidated financial
           statements would not have occurred without your emphasis and personal
           commitment to improving financial management practices, along with that of your
           senior leadership team, including the Acting FAA Administrator and the
           departmental Chief Financial Officer. During the year, you made several inquiries
           about FAA’s CIP and financial statement audit progress. Your consistent attention
                                                                               2


to this subject helped departmental officials stay focused on their correction
efforts.

The Department has undergone annual financial statement audits since FY 1992
and received the best outcome yet in FY 2007–a clean audit opinion and only one
material weakness (FAA’s continued challenge in managing the property account).
While the Department should be commended for this accomplishment, it must
remain vigilant in sustaining good financial management operations because
auditors continue to find significant deficiencies associated with financial
transaction processing. These deficiencies, if not properly addressed, could turn
into material weaknesses in the future. The following summarizes key challenges
the Department continues to face.

Institutionalizing New CIP Processes

FAA must institutionalize the new policies and procedures it developed to process
CIP transactions. FAA’s process for accounting for CIP has been a longstanding
concern. Auditors reported material weaknesses concerning FAA’s Property,
Plant, and Equipment account balances, including inaccurate and untimely CIP
transaction processing, 13 times since FY 1992. Congress provides more than
$2 billion to FAA to invest in modernizing air traffic control systems each year.
Most modernization projects involve sophisticated technology that may take years
to develop/construct from concept to deployment. CIP projects are often deployed
to multiple locations at different times and require FAA to use complicated
formulas to calculate incurred and projected costs. In addition, the rapid
advancement of technology and changes in FAA programs sometimes cause FAA
to abandon projects before deployment.

For years, FAA has relied on a labor-intensive process to adjust the CIP account
balance for the annual financial statement reporting. For FY 2006, however, FAA
was unable to support the $4.7 billion CIP account balance as of
September 30, 2006. As a result, both FAA and the Department received a
qualified audit opinion on the FY 2006 financial statements.

During FY 2007, FAA made an unprecedented effort and devoted extensive
resources to cleaning up the CIP account by conducting a comprehensive project-
by-project evaluation. As part of these correction efforts, FAA also revised the
associated CIP business processes. These included standardizing the methodology
to calculate unit costs and overhead (burdening) allocation and enhancing
procedures to record transactions in the property subsidiary ledger to ensure
accurate, complete, and timely recording throughout the year. However,
implementing these new procedures is very challenging. As a result, these new
policies and procedures were not fully used to process FY 2007 transactions.
                                                                               3


Institutionalizing the new (To-Be) procedures throughout the Agency will help
ensure that FAA properly accounts for capital investment projects and avoids
devoting extensive resources to this process again in future years. This year,
KPMG reported FAA’s CIP-related process a continued material weakness and
recommended that FAA implement proper internal controls around the new
policies and procedures; continue training and strengthening communications
among field, regional, and accounting offices; enhance automated system
processes to reduce manual interventions; and assess its human capital needs to
reduce reliance on contract staff for future implementation.

Regarding the Highway Trust Fund (HTF) financial statements, KPMG rendered
an unqualified (clean) opinion this year, the ninth consecutive HTF clean opinion
since FY 1999. More importantly, auditors did not identify any material weakness
associated with HTF financial accounting operations and oversight, which had
been a repeated material weakness since FY 2003. This signals to the public that
the Department has finally developed a mature and reliable financial environment
to account for HTF resources. This is especially important because, beginning in
FY 2008, this stand-alone financial statement will cease to exist. HTF-related
financial activities will be audited as part of the Department’s consolidated
financial statements.

The Department was required to prepare a stand-alone financial statement to
increase the visibility of HTF financial management. The HTF finances
operations in multiple DOT Operating Administrations: the Federal Highway
Administration (FHWA), the Federal Transit Administration, the National
Highway Traffic Safety Administration, the Federal Motor Carrier Safety
Administration, the Federal Railroad Administration, and the Research and
Innovative Technology Administration. In addition, 15 other agencies outside of
DOT receive HTF appropriations through FHWA. Together, these agencies
disbursed about $40 billion in Federal funds during FY 2007.

To account properly for resources of this magnitude and complexity, the
Department implemented new policies and procedures for internal governance and
coordination with outside entities. In consideration of the progress made, the
Office of Management and Budget approved the Department’s request and waived
the requirement for stand-alone HTF financial statements in June 2007.

Facing the Highway Trust Fund Funding Crisis

While the Department made good strides in strengthening financial management
oversight of HTF resource usage, it is now facing a new challenge. The HTF is
the primary source for financing highway construction projects and has
experienced declining revenue collection. This year, the Department of the
                                                                                                                    4


Treasury’s mid-year evaluation increased its projection of the FY 2009 cash
shortfall from $230 million to $3.8 billion for the trust fund’s highway account—a
16-fold escalation. Unless addressed, this shortfall could lead to reductions in
obligation limitations for Federal highway programs below the levels anticipated
in the current authorization to prevent HTF insolvency.

Highway funding levels are largely determined by the amount of revenue collected
from the Federal motor fuel excise tax. The Internal Revenue Service (IRS)
collects between $30 billion and $40 billion annually in motor fuel tax revenues,
which account for almost 90 percent of HTF receipts. To combat motor fuel
excise tax evasion, Congress has appropriated tens of millions of dollars from the
HTF to help IRS develop more sophisticated information systems and enhance tax
examination and motor fuel excise tax evasion investigations. This tax evasion is
estimated to cost the trust fund $1 billion per year. 1

In October 2005, the Treasury Inspector General for Tax Administration reported
that the IRS did not effectively implement congressional direction. 2 In response to
our request, the Treasury Inspector General has agreed to perform a follow-up
review of IRS’ corrective actions in FY 2008 (see Exhibit A). Reducing tax
evasion is critical, given the erosion of trust fund revenues and the rising need for
investments in the Nation’s highway infrastructure. 3 FHWA management needs
to work closely with IRS to implement congressional direction and increase tax
revenue collections for the HTF.

Ensuring Continued Financial Management Improvement

Generating timely, reliable, and useful financial information is no small task and
requires continued senior management attention. DOT is a complex organization
that is accountable for substantial resources. DOT’s FY 2007 financial statements
show total assets of $62 billion, liabilities of $14 billion, program costs of
$63 billion, and available financial resources of more than $122 billion. In
FY 2007, DOT received appropriations of $63 billion. More than $51 billion
(about 82 percent) of DOT’s revenue sources came from two trust funds, the HTF
and the Airport and Airway Trust Fund.

Based on the amount of resources received (appropriations), the Department
would rank among the top 20 corporations in America. To measure up to what is

1
    According to the IRS estimate, the Highway Trust Fund loses about $1 billion annually because fuel owners mix
    motor fuel with other products—a practice aimed at increasing the fuel volume to reduce the effective tax rate.
2
    “The Excise Files Information Retrieval System Has Not Been Effectively Implemented,” Treasury Inspector
    General for Tax Administration, 2006-20-001.
3
    In January 2007, the Government Accountability Office identified financing the Nation’s transportation system as a
    high-risk area. GAO High-Risk Series: An Update, January 2007 (GAO-07-310).
                                                                                5


expected from large publicly-held corporations, the Department needs to sustain
clean audit opinions with no material weaknesses, continue enhancing its financial
management oversight, and improve the quality of its financial information
throughout the year. During this audit, we identified incidents in which
management postponed researching/resolving account variances by posting
adjusting entries at the end of each quarter, which were reversed at the beginning
of the next quarter. This practice not only results in lower quality financial
information throughout the year, but also inappropriately increases the yearend
workload. It must be corrected.

We provided a draft of this report to the DOT Assistant Secretary for Programs
and Budget/Chief Financial Officer, who concurred with its findings and agreed to
implement corrective actions. We appreciate the cooperation and assistance of
DOT and KPMG representatives. If we can answer any questions, please call me
at (202) 366-1959; David Dobbs, Principal Assistant Inspector General for
Auditing and Evaluation, at (202) 366-1427; or Rebecca Leng, Assistant Inspector
General for Financial and Information Technology Audits, at (202) 366-1488.

Attachment
                                                                                    Attachment
                                                                                   Page 1 of 23


                 DEPARTMENT OF TRANSPORTATION
          INSPECTOR GENERAL’S INDEPENDENT AUDIT REPORT
              ON THE DEPARTMENT OF TRANSPORTATION
               CONSOLIDATED FINANCIAL STATEMENTS
                 FOR FISCAL YEARS (FY) 2007 AND 2006


To the Secretary:

The Department of Transportation (DOT) Office of Inspector General (OIG)
audited the DOT Consolidated Financial Statements for the years ended
September 30, 2007, and September 30, 2006. We found:

• Financial statements that are fairly presented, in all material respects, in
  conformity with generally accepted accounting principles.

• One material internal control weakness: timely processing of transactions and
  accounting for Federal Aviation Administration (FAA) property, plant, and
  equipment, including the Construction in Progress (CIP) account.

• Four significant deficiencies: (1) journal entries and analysis of account
  relationships for the Highway Trust Fund (HTF) agencies, 1 (2) controls over
  financial management systems, (3) DOT’s information security program, and
  (4) reporting the FTA grant accrual.

• Four instances of noncompliance with laws and regulations: (1) the Federal
  Financial Management Improvement Act of 1996 (FFMIA); (2) the Anti-
  deficiency Act; (3) the Improper Payments Information Act of 2002; and
  (4) SFFAS#4, Managerial Cost Accounting Concepts and Standards.

• Financial information in the Management Discussion and Analysis materially
  consistent with the financial statements.

• Supplementary and stewardship information, and other accompanying
  information, materially consistent with management representations and the
  financial statements.

We performed our work in accordance with Generally Accepted Government
Auditing Standards and Office of Management and Budget (OMB) Bulletin 07-04,

1
    Federal Highway Administration, National Highway Traffic Safety Administration, Federal Transit
    Administration, Federal Railroad Administration, Federal Motor Carrier Safety Administration, and
    Research and Innovative Technology Administration.
                                                                     Attachment
                                                                    Page 2 of 23

“Audit Requirements for Federal Financial Statements.” The following sections
discuss these conclusions. Our audit objectives, scope, and methodology are
described in Exhibit B. We believe that our audit provides a reasonable basis for
our opinion.

A. UNQUALIFIED OPINION ON FINANCIAL STATEMENTS
In our report dated November 15, 2006, we expressed a qualified opinion on the
FY 2006 DOT consolidated financial statements because the FAA CIP balance
presented to KPMG in August 2006 contained material errors, and FAA was not
able to develop a reliable and supportable CIP balance prior to the issuance of the
DOT FY 2006 Performance and Accountability Report (PAR). As discussed in
footnotes 9 and 25, FAA has completed its review of the CIP balance and related
transactions (reduced the September 30, 2006, CIP balance from $4.7 billion to
$2.1 billion) and, as a result, DOT restated the FY 2006 consolidated financial
statements to correct the error in accounting for FAA CIP. The restatement relates
to the material weakness in the processing of transactions and accounting for FAA
property, plant, and equipment, including the CIP account. Accordingly, our
opinion on the DOT consolidated financial statements, including the FY 2006
restated financial statements, is different from that expressed in our previous
report.

In our opinion, the DOT consolidated financial statements, including the
accompanying notes, present fairly, in all material respects, in conformity with
generally accepted accounting principles, the DOT assets, liabilities, and net
position; net costs; changes in net position; and budgetary resources; as of
September 30, 2007, and September 30, 2006, and for the years then ended.

Under contract with OIG and under its supervision, KPMG audited the financial
statements of FAA as of and for the years ended September 30, 2007, and
September 30, 2006, and rendered an unqualified opinion on the FAA financial
statements. KPMG also audited the financial statements of the HTF as of and for
the years ended September 30, 2007, and September 30, 2006, and rendered an
unqualified opinion on the HTF financial statements. We performed quality
control reviews of the work performed by KPMG and relied on their results in
performing our work on the FY 2007 and FY 2006 DOT consolidated financial
statements.

As discussed in financial statement footnotes 1 and 21, the accompanying
financial statements reflect actual excise tax revenues deposited in the HTF and
the Airport and Airway Trust Fund for the 9 months ended June 30, 2007, and
excise tax receipts estimated by the Department of the Treasury Office of Tax
Analysis for the quarter ended September 30, 2007. As discussed in footnote 1,
                                                                          Attachment
                                                                         Page 3 of 23

DOT changed its method of accounting for parent/child allocation transfers in
FY 2007, in accordance with OMB Circular A-136.

Also, as discussed in footnotes 1 and 24, DOT changed its method of reporting
footnotes 1 and 24, DOT changed its method of reporting the reconciliation of
budgetary resources obligated to the net cost of operations in FY 2007, in
accordance with OMB Circular A-136.

As discussed in footnote 25, DOT has restated certain balances previously
reported to correct errors in accounting for FAA CIP, estimating the FTA grant
accrual, and reporting FTA earmarked funds.

B. CONSIDERATION OF INTERNAL CONTROLS
In planning and performing our audit, we considered DOT’s internal controls over
financial reporting, compliance with laws and regulations, and reliability of
performance reporting. We do not express an opinion on internal controls because
the purpose of our work was to determine our procedures for auditing the financial
statements and to comply with OMB Bulletin 07-04 audit guidance, not to express
an opinion on internal controls.

For the controls we tested, we found one material weakness. A material weakness
is a significant deficiency, or combination of significant deficiencies, that result in
a more than remote likelihood that a material misstatement of the financial
statements will not be prevented or detected.

Our work identified four significant deficiencies in internal controls. A significant
deficiency is a deficiency in internal control, or a combination of deficiencies, that
adversely affects the entity’s ability to initiate, authorize, record, process, or report
financial data reliably in accordance with generally accepted accounting principles
such that there is a more than remote likelihood that a misstatement of the entity’s
financial statements that is more than inconsequential will not be prevented or
detected. Our internal control work would not necessarily disclose all material
weaknesses or significant deficiencies.
                                                                    Attachment
                                                                   Page 4 of 23

MATERIAL WEAKNESS

Timely Processing of Transactions and Accounting for FAA Property, Plant, and
Equipment, including the CIP Account

In FY 2005, KPMG reported a material weakness related to deficiencies in FAA’s
ability to process transactions and reconcile account balances in a timely manner.
The account most affected was the CIP component of the Property, Plant, and
Equipment (PP&E) line item. In FY 2006, KPMG reported that the CIP balance
presented by FAA in August 2006 contained unknown and potentially material
errors, and FAA management was unable to represent to KPMG, before the
issuance of the Department’s Performance and Accountability Report, that the CIP
balance, reported to be $4.7 billion as of September 30, 2006, was fairly stated.
Accordingly, KPMG could not complete its audit of CIP balances and again
identified CIP process deficiencies as a material weakness. KPMG noted that
FAA lacked adequate policies, procedures, and controls to monitor its CIP activity
and balances in a routine and timely fashion.

During FY 2007 FAA executed an extensive corrective action plan, including a
complete review of the CIP balance reported as of September 30, 2006. FAA’s
review of CIP resulted in a significant restatement of the DOT FY 2006 financial
statements, including a reclassification of $1.7 billion from CIP to in-use fixed
assets and more than $900 million from CIP to expense. The restated CIP balance
at September 30, 2006, was $2.1 billion.

In its FY 2007 audit report, KPMG again identified the processing of transactions
and accounting for PP&E, including the CIP account, as a material weakness.
KPMG noted that FAA had not fully complied with standardized policies and
procedures on unit costs, overhead allocations, and entry of transactions in the
fixed asset subsidiary ledger, to ensure CIP and related PP&E balances were
accurate, complete, and recorded in a timely manner throughout the year.
Substantial manual processes were necessary for FAA to account for and report
CIP transactions occurring during FY 2007 and to determine the appropriate
balances reported at year end. Specifically, KPMG noted:

• FAA was focused on the cleanup of FY 2006 and prior-year activity in the first
  two quarters of FY 2007; therefore, about 80 percent of FY 2007 capitalization
  activity (additions and adjustments from CIP to in-use fixed assets) were not
  recorded at the detailed transaction level until after March 31, 2007;

• Documentation (joint acceptance inspections, contractor acceptance
  inspections, delivery schedules, etc.) was not readily available from program
                                                                     Attachment
                                                                    Page 5 of 23

   offices and did not consistently support management’s conclusions on CIP
   project status; in some cases, management needed to reevaluate its initial
   disposition of CIP projects and adjust the general ledger and draft financial
   statement amounts;

• A lack of formal communications and training for program managers,
  engineers, and operational accountants needed to accurately account for and
  present capitalized balances and related expenses;

• A lack of adherence to policies and procedures to ensure the timely removal of
  fixed assets from the accounting system upon retirement;

• FAA processes and controls allowed errors to occur in the CIP capitalization
  and valuation process, such as unit costing and overhead allocation; the
  methodology adopted by FAA requires a high level of manual involvement to
  accurately account for CIP; and

• FAA has weaknesses in entity-level controls pertaining to human resources to
  properly account for PP&E and CIP, and relied heavily on outside contractors
  to compute the restatement of the FY 2006 financial statements and record
  FY 2007 CIP and PP&E transactions.

Accounting for FAA CIP and PP&E is very complex with many variables and
inputs that affect capitalized asset values including estimates, indirect costs,
projection of future spending rates, and the timing and number of asset
deployments. The conditions leading to the restatement of the FY 2006 financial
statements and the material weakness have built up over several years. For
example, FAA converted to the Delphi accounting system in FY 2004, and during
the conversion, some CIP balances were transferred at the summary level, making
the identification of individual assets in CIP more difficult, causing assets to
remain in CIP long after they had been placed in service. Also, FAA experienced
turnover in key PP&E accounting positions, especially at the HQ level, resulting in
loss of continuity and institutional knowledge.           Finally, until recently,
programmatic and operational personnel did not always adhere to policies and
procedures to enable the timely recording of assets placed in service.

As a result, FAA had not fully implemented internal controls required by the
Federal Managers’ Financial Integrity Act (FMFIA) and OMB Circular A-123,
that will allow FAA management to provide reasonable assurance that controls
over CIP and PP&E are properly designed and operating effectively. In addition,
if FAA is unable to correct these conditions early in FY 2008, the CIP, PP&E, and
                                                                       Attachment
                                                                      Page 6 of 23

related financial statement balances may not be fairly stated at the end of FY 2008
and beyond.

KPMG made seven recommendations to correct these deficiencies. FAA agreed
with the KPMG recommendations and indicated it would continue to implement
corrective actions in early FY 2008.

SIGNIFICANT DEFICIENCIES

The following sections describe the significant deficiencies that we identified.

Journal Entries and Account Relationships for the HTF Agencies

Since the audit of the FY 2003 HTF financial statements, we reported that material
weaknesses existed in internal controls over financial management and reporting
activities in the HTF agencies. In FY 2006, KPMG reported that the HTF
agencies continued to have a material weakness in financial management,
reporting, and oversight. The deficiencies reported by KPMG included (1) the
preparation, approval, and processing of journal entries; (2) the preparation and
analysis of the HTF financial statements; (3) the analysis of abnormal account
balances; (4) the analysis of proprietary and budgetary account relationships;
(5) the coordination with non-DOT agencies that receive HTF appropriations
through FHWA; and (6) the estimation and reporting of grant accruals.

During FY 2007, the HTF agencies implemented significant improvements in
internal controls over financial management and reporting activities. The
deficiencies related to the preparation and analysis of the HTF financial
statements, the analysis of abnormal account balances, and accounting for parent-
child allocation transfers (with non-DOT agencies) have been corrected. In its
FY 2007 audit report, KPMG identified controls over journal entries and analysis
of proprietary and budgetary account relationships as a significant deficiency. In
addition, KPMG reported the FTA grant accrual as a separate significant
deficiency.

Controls Over Journal Entries

For the 114 journal entries reviewed by KPMG at September 30, 2007, KPMG
noted 34 instances related to the FHWA, the Federal Motor Carrier Safety
Administration (FMCSA), and the National Highway Traffic Safety
Administration (NHTSA) in which either supporting documentation was not
provided or the documentation provided was insufficient to support the entry.
KPMG also noted the approvers for six journal entries related to FHWA and
                                                                    Attachment
                                                                   Page 7 of 23

NHTSA were unable to explain the purpose of the entry. While all journal entries
reviewed had evidence of approval by other than the preparer, KPMG noted
12 entries related to FHWA, FMCSA, and NHTSA in which they could not
determine if the entry was approved before it was posted to the general ledger.
Failure to follow existing policies and procedures over journal entries increases
the risk that financial statements may be misstated or not properly supported.

Analysis of Proprietary and Budgetary Account Relationships

During FY 2007 the DOT Office of Financial Management developed a consistent
and comprehensive set of proprietary and budgetary account relationship tests for
all DOT agencies to use for the period ended June 30, 2007. During its review of
account relationship tests at September 30, 2007, KPMG noted the following
exceptions related to analyzing, resolving, or explaining the variances identified
by the account relationship tests:

• FHWA did not analyze or resolve any of the 62 variances identified;

• FMCSA identified 26 variances, identified the cause of 18 variances, but
  provided no indication of the cause of the other 8 variances or when they
  would be resolved;

• NHTSA identified 28 variances, identified the cause of 11 variances, but
  provided no indication of the cause of the other 17 variances or when they
  would be resolved; and

• The Research and Innovative Technology Administration (RITA) identified
  10 variances, identified the cause of 3 variances, but provided no indication of
  the cause of the other 7 variances or when they would be resolved.

KPMG reported that at the end of each quarter, journal entries were posted to
balance certain proprietary and budgetary accounts without completely
researching the related variance. These journal entries are reversed at the
beginning of the next quarter in order to continue researching the variances.

The HTF agencies had not adequately implemented existing policies and
procedures over the analysis and resolution of variances identified between
proprietary and budgetary accounts. In addition, Office of the Secretary of
Transportation (OST) policies and procedures did not establish a firm due date for
the resolution of any variances identified. Failure to research and resolve
proprietary and budgetary account variances increases the risk that financial
statements may be misstated or not properly supported.
                                                                    Attachment
                                                                   Page 8 of 23


KPMG made six recommendations to improve controls over journal entries and
proprietary and budgetary account relationship tests for the HTF agencies.
Departmental management agreed to implement corrective actions.

Financial System Controls

Last year, we reported DOT’s financial system controls as a reportable condition
(significant deficiency). This included system control weaknesses in Delphi and
computer security deficiencies in FAA and HTF systems that provide financial
data to Delphi.

In FY 2007, DOT made significant progress in strengthening the design and
implementation of controls over Delphi. Enhanced computer security and other
protective measures enabled auditors to rely on Delphi financial management
system controls except for logical access controls. In addition, FAA and HTF
systems were enhanced in areas such as security awareness training, user access,
contingency planning, physical security, segregation of duties, and others.
However, DOT’s move to a new Headquarters building in Washington, D.C.,
resulted in other security concerns. Consequently, despite progress in some areas,
continued improvements are needed to remediate various control deficiencies in
the Delphi, FAA, and HTF financial systems.

Computer security controls can be improved in all 12 systems reviewed during the
DOT financial statement audits.

• Departmental system: Delphi Financial Management System

• FAA systems: procurement system (PRISM), cost accounting system,
  timekeeping system (CASTLE), grant management system (System of
  Accounting and Reporting)

• FHWA systems: User Profile and Access Control System, Rapid Approval and
  State Payment System, Fiscal Management Information System, Delphi
  Interface Management System

• FTA Systems: Transportation Electronic Award Management System,
  Electronic Clearing House Operation, and Delphi Online Transaction System.

KPMG’s audit reports dated November 5, 2007, included recommendations to
improve the information technology environment applicable to FAA and HTF
financial systems.
                                                                       Attachment
                                                                      Page 9 of 23

The Clifton Gunderson LLP review of the controls over the Enterprise Service
Center’s Delphi Financial Management System, again reported weaknesses in the
design and implementation of access controls related to the Delphi financial
management system. Departmental management agreed to implement corrective
actions needed in the Delphi, FAA, and HTF financial systems.

DOT Information Security Program
In October 2007, we issued our seventh annual report on DOT’s Information
Security Program. FY 2007 was a challenging year for the Department because of
the Headquarters move and the need to review, test, and certify security protection
for more than half of the departmental information systems. Because of this, the
overall effectiveness of the Department’s information security program declined.
Specifically, management did not meet Government security standards to protect
information systems and did not take sufficient action to correct identified security
deficiencies. We also found that commercial software products used in
departmental systems were not configured in accordance with security standards,
and that security incidents were incompletely and/or inaccurately reported.

We made a series of recommendations to help the Department strengthen its
information security program. The Department Chief Information Officer agreed
that these are needed to resolve the current deficiencies.

FTA Grant Accrual

For year-end reporting, the Federal Transit Administration (FTA) calculated and
recorded an estimate (liability) for the amount of work performed by its grantees
(including their contractors) but not yet billed to or reimbursed by FTA. During
FY 2007 FTA hired a consultant to assist in the development of grant accrual
using a nonstatistical sample of surveys to 49 grantees (29 large and 20 small) that
accounted for about 70 percent of active obligations. The survey requested
information that would assist FTA in calculating the FY 2007 grant accrual, such
as billing cycle days and grantees’ audited year-end accrual amounts.

While FTA received all the completed surveys, the responses varied in terms of
reliability. FTA determined that only 18 of the 49 surveys (13 large and 5 small)
were reasonably accurate and suitable for use in calculating FY 2007 grant
accrual. KPMG determined that the 18 surveys constituted an inadequate basis on
which to calculate the accrual. FTA agreed to follow up on the remaining surveys,
and was ultimately able to use 45 of the 49 surveys. KPMG also noted that
documentation supporting the work performed by FTA and its consultant was
initially incomplete and there was no evidence that FTA properly reviewed the
work performed by its consultant.
                                                                      Attachment
                                                                    Page 10 of 23

Controls are not in place in FTA to ensure that grant accrual is based on sufficient
information provided by its grantees. KPMG made two recommendations to FTA
to improve controls over the development of the grant accrual and oversight of
work performed by its consultant. Departmental management agreed to
implement corrective actions.

C. COMPLIANCE WITH LAWS AND REGULATIONS
In planning and conducting our audit, we performed limited tests of DOT’s
compliance with laws and regulations, as required by OMB guidance. It was not
our objective to express, and we do not express, an opinion on compliance with
laws and regulations. Our work was limited to testing selected provisions of laws
and regulations that would have a direct and material effect on the financial
statements and be reportable under Generally Accepted Government Auditing
Standards or under OMB guidance. Our work disclosed the following instances of
noncompliance with laws and regulations.

FEDERAL FINANCIAL MANAGEMENT IMPROVEMENT ACT
OF 1996 (FFMIA)

Under FFMIA, we must report whether DOT’s financial management systems
substantially comply with Federal financial system requirements, generally
accepted accounting principles, and the U.S. Government Standard General
Ledger at the transaction level. DOT was not in compliance with FFMIA because
FAA was unable to account for property, plant, and equipment transactions
including the CIP account, and present balances in its periodic financial statements
in accordance with generally accepted accounting principles as of and for the year
ended September 30, 2007.

ANTIDEFICIENCY ACT

Title 31, United States Code, Section 1517, provides that an officer or employee of
the U.S Government may not make or authorize an expenditure or obligation
exceeding an amount available in an allotment.             In our report on the
FY 2006 DOT financial statements, we reported that FAA still needed to report to
the President and Congress, a $1.9 million violation associated with the Small
Community Air Service Development Program first detected by FAA in FY 2005.
On September 7, 2007, DOT reported the FAA Small Community Air Service
Development Program violation to the President and Congress.

On June 1, 2006, DOT also reported to the President and Congress a $3.6 million
violation in RITA’s Research and Development Account. While departmental
                                                                    Attachment
                                                                  Page 11 of 23

management was aware of this violation during FY 2006, it did not disclose the
incident in the management representation letter prior to issuance of our audit
report on the FY 2006 DOT Consolidated Financial Statements.

Also during FY 2007, the Maritime Administration (MARAD) CFO identified a
potential violation at the U.S. Merchant Marine Academy that needs to be
reviewed by MARAD and OST General Counsel and, if determined to be a
violation, reported to the President and Congress.

IMPROPER PAYMENTS INFORMATION ACT OF 2002 (IPIA)

OMB Circular A-123, Appendix C, issued on August 10, 2006, entitled
“Requirements for Effective Measurement and Remediation of Improper
Payments,” implements the requirements of IPIA and is effective for
FY 2006 reporting. The circular defines an improper payment as any payment that
should not have been made or that was made in an incorrect amount under
statutory, contractual, administrative, or other legally applicable requirements.
Incorrect amounts include overpayments and underpayments, payments made to
an ineligible recipient or for an ineligible service, duplicate payments, payments
for services not received.

The circular prescribes a four-step approach for use by agencies in evaluating
improper payments: (1) review all programs and identify those susceptible to
significant erroneous payments; (2) statistically estimate the annual amount of
improper payments; (3) implement a plan to reduce erroneous payments; and
(4) report estimates of the annual amount of improper payments and progress in
reducing them.

In our FY 2006 report we stated that FHWA could not estimate the annual amount
of improper payments made under the Federal-aid program, and that the estimate
was limited to a period of 5 months—about $30 million. We also reported that
FTA and FAA were still in the early stages of implementing the improper
payments testing requirements. During FY 2006, FAA performed testing of grant
payments made by one airport authority, and FTA tested payments made by two
transit grantees.

During FY 2007 DOT reported it successfully completed its review of improper
payments in 3 of the 4 DOT major grant programs; the FHWA Federal-aid
Program, the FAA Airport Improvement Program, and the FTA Formula Grant
Program. In addition, DOT reported it had developed and tested a model to test
for improper payments in the FTA Capital Investment Program in FY 2008.
However, we were not provided sufficient information by DOT and its consultant,
                                                                      Attachment
                                                                    Page 12 of 23

before the issuance of the DOT FY 2007 PAR, to determine if the sampling plan
used by DOT and its consultant was statistically valid. For example, we could not
determine if the sample sizes or the projection of the sample results to the program
totals were based on generally accepted conventional formulas. The Department
planned to initiate another round of improper payments testing in all four grant
programs next year. We will continue to work with DOT and its consultant to
ensure the improper payment testing performed in FY 2008 is based on valid
statistical sampling techniques.

SFFAS 4, MANAGERIAL COST ACCOUNTING CONCEPTS AND
STANDARDS

Statement of Federal Financial Accounting Standards (SFFAS) Number 4,
Managerial Cost Accounting Concepts and Standards for the Federal Government,
requires Federal entities to establish managerial cost accounting capabilities in
order to provide reliable and timely information on the full cost of Federal
programs, activities, and outputs. The managerial cost accounting capabilities
must include (1) accumulating and reporting costs on a regular basis for
management information purposes, (2) establishing responsibility segments to
match costs with outputs, (3) determining full costs of goods and services,
(4) recognizing the costs of goods and services provided among Federal entities,
and (5) using appropriate costing methodologies to accumulate and assign costs to
outputs.

Nine Operating Administrations (OA) (FHWA, MARAD, FMCSA, FRA,
NHTSA, PHMSA, RITA, OST, and STB) have not fully implemented cost
accounting processes in accordance with SFFAS Number 4. Using the FY 2007
OMB Circular A-123 (Appendix A) results, the DOT CFO has recommended that
each of these nine OAs continue implementing their managerial cost accounting
processes.

D. CONSISTENCY OF OTHER INFORMATION
The Management Discussion and Analysis, Required Supplementary Information,
Required Supplementary Stewardship Information, and Other Accompanying
Information sections of the PAR contain a wide range of data, some of which are
not directly related to the financial statements. We are not required to, and we do
not, express an opinion on this information. As required by OMB guidance, we
inquired of management about the methods of preparing this information, and we
compared this information for consistency with the DOT consolidated financial
statements and other knowledge obtained during the audit of the financial
                                                                  Attachment
                                                                Page 13 of 23

statements. Based on this work, we found no material inconsistencies with the
DOT consolidated financial statements or nonconformance with OMB guidance.

E. PRIOR AUDIT COVERAGE
Our report on the DOT Consolidated Financial Statements for FY 2006 and
FY 2005 expressed a qualified opinion and made no new recommendations.
Exhibit C displays the status of the prior year’s findings.

Since our report on the DOT Consolidated Financial Statements for FY 2006 and
FY 2005 was released, we have issued 19 additional reports related to the DOT
Consolidated Financial Statements. The reports are listed in Exhibit D.

The Assistant Secretary for Budgets and Programs/Chief Financial Officer
provided comments on a draft of this report (see Appendix). The response agreed
with the material weakness and significant deficiencies cited in this report and
stated that corrective actions have already been initiated. Management agreed to
provide a detailed action plan addressing each finding by December 28, 2007.

This report is intended for the information of and use by DOT, OMB, the
Government Accountability Office, and Congress. The report is a matter of public
record, and its distribution is not limited.



Calvin L. Scovel III
Inspector General


November 9, 2007
                                                                                               Attachment
                                                                                             Page 14 of 23

 EXHIBIT A. LETTER TO TREASURY INSPECTOR GENERAL FOR
 TAX ADMINISTRATION



U.S. Department of                                       The Inspector General             Office of Inspector General
Transportation                                                                             Washington, DC 20590

Office of the Secretary
of Transportation

 October 25, 2007



 The Honorable J. Russell George
 Treasury Inspector General for Tax Administration
 U.S. Department of Treasury
 1125 15th Street, NW
 Washington, DC 20005

 Dear Mr. George:

 I would like to express my appreciation for your office’s decision to perform a
 follow-up review of the Internal Revenue Service’s (IRS) implementation of the
 Excise Files Information Retrieval System (ExFIRS). The IRS developed this
 system to combat motor fuel excise tax evasion. In October 2005, your office
 reported that the IRS had not effectively implemented ExFIRS and recommended
 corrective actions to help increase tax revenue collection for the Highway Trust
 Fund. 1

 The IRS collects between $30 billion and $40 billion annually in motor fuel tax
 revenues, which account for almost 90 percent of Highway Trust Fund receipts.
 This trust fund is the primary financial source for highway construction projects.
 Since fiscal year 1999, Congress has appropriated tens of millions of dollars from
 the Highway Trust Fund to help IRS develop ExFIRS and enhance tax
 examination and motor fuel excise tax evasion investigations. This tax evasion is
 estimated to cost the trust fund $1 billion per year. 2


 1
   “The Excise Files Information Retrieval System Has Not Been Effectively Implemented,” Treasury Inspector General
    for Tax Administration, 2006-20-001.
 2
    According to the IRS estimate, the Highway Trust Fund loses $1 billion annually because fuel owners mix motor
    fuel with other products—a practice aimed at increasing the fuel volume to reduce the effective tax rate.


 Exhibit A. Letter to Treasury Inspector General for Tax Administration
                                                                                                  Attachment
                                                                                                Page 15 of 23

In August 2007, my staff requested that your office do a follow-up review after we
received the Department of the Treasury’s mid-year evaluation of the Highway
Trust Fund. Treasury increased its projection of fiscal year 2009 cash shortfalls
from $230 million to $3.8 billion for the trust fund’s highway account—a major
escalation.

Reducing tax evasion is critical in view of the erosion of trust fund revenues and
rising need for investments in the Nation’s highway infrastructure. 3 Your review
will provide critical insight into IRS efforts to collect more tax revenues for the
Highway Trust Fund through ExFIRS.

We are particularly interested in the status of the following corrective actions to
reduce motor fuel excise tax evasion.

    1. Enforcing electronic filing of motor fuel tax information. The October 2005
       report stated that the planned use of the automated matching process in
       ExFIRS to detect tax evasion was limited because only 70 percent of the fuel
       transactions were reported electronically.

    2. Revising the computer matching process to indentify potential noncompliant
       taxpayers. The October 2005 report stated that the IRS deemed the matching
       results unreliable and that it planned to revise the matching process.

    3. Referring potential noncompliance cases for examination and actual
       recovery. The October 2005 report stated that the IRS elected not to refer
       potential exception cases identified by computer matching for examination
       until electronic filing became mandated in 2006.

    4. Assessing penalties on companies that failed to file complete and accurate
       information documents. The October 2005 report stated that data perfection
       issues would continue to pose a significant problem to ExFIRS operations.
       IRS, however, elected not to assess penalties on companies until after
       January 1, 2006.

    5. Mitigating “reporting gaps” in the movement of motor fuel. The October
       2005 report stated that while ExFIRS was designed to track all motor fuel
       movements into and out of approved terminals, reporting gaps hinder the
       effectiveness of ExFIRS to monitor fuel production and sales. For example,



3
    In January 2007, the Government Accountability Office identified financing the Nation’s transportation system as a
    high-risk area. GAO High-Risk Series: An Update, January 2007 (GAO-07-310).
                                                                      Attachment
                                                                    Page 16 of 23

      certain carriers were exempted from reporting fuel deliveries to the terminal.
      Also, ExFIRS would not include fuel distribution reporting at refineries,
      unregulated terminals, and bulk storage facilities.

 6. Enhancing coordination with the Federal Highway Administration. The
    October 2005 report stated that the IRS and the Federal Highway
    Administration need to work more closely on ExFIRS development.

We look forward to the results of your review in these key areas. My office will
be glad to assist you in coordinating with the Federal Highway Administration.

If you have any questions or would like to discuss this matter further, please
contact me at (202) 366-1959 or Todd Zinser, Deputy Inspector General, at
(202) 366-6767.

Sincerely,




Calvin L. Scovel III
Inspector General

cc:    Administrator, Federal Highway Administration
       Assistant Secretary for Budget and Programs/Chief Financial Officer




Exhibit A. Letter to Treasury Inspector General for Tax Administration
                                                                      Attachment
                                                                    Page 17 of 23


EXHIBIT B. OBJECTIVES, SCOPE, AND METHODOLOGY

Our audit objectives for the DOT Consolidated Financial Statements for FY 2007
and FY 2006 were to determine whether (1) the basic DOT Consolidated Financial
Statements and accompanying notes were presented fairly, in all material respects,
in conformity with generally accepted accounting principles; (2) DOT had
adequate internal controls over financial reporting, including safeguarding assets;
(3) DOT complied with laws and regulations that could have a direct and material
effect on the basic DOT Consolidated Financial Statements or that had been
specified by OMB, including FFMIA; (4) financial information in the
Management Discussion and Analysis, Required Supplementary Information,
Required Supplementary Stewardship Information, and Other Accompanying
Information was materially consistent with the information in the basic DOT
Consolidated Financial Statements; and (5) internal controls were in place relating
to the existence and completeness of performance measures.

DOT is responsible for (1) preparing the DOT Consolidated Financial Statements
for FY 2007 and FY 2006 in conformance with generally accepted accounting
principles; (2) establishing, maintaining, and assessing internal controls to provide
reasonable assurance that broad control objectives of FMFIA are met; (3) ensuring
that DOT financial management systems substantially comply with FFMIA
requirements; and (4) complying with other applicable laws and regulations. DOT
is responsible for maintaining an effective system of internal controls. The
objectives of these controls are explained below.

• Financial reporting. Transactions are properly recorded, processed, and
  summarized to permit the preparation of financial statements in accordance
  with generally accepted accounting principles; and assets are safeguarded
  against loss from unauthorized acquisition, use, or disposition.
• Compliance with laws and regulations. Transactions are executed in
  accordance with laws governing the use of budget authority and with other
  laws and regulations that could have a direct and material effect on the
  financial statements; and any other laws, regulations, and policies identified by
  OMB.
• Reliability of performance reporting. Transactions and other data that
  support reported performance measures are properly recorded, processed, and
  summarized to permit the preparation of required performance information.
To fulfill these responsibilities, we (1) examined, on a test basis, evidence
supporting the amounts and disclosures in the financial statements; (2) assessed


Exhibit B. Objectives, Scope, and Methodology
                                                                        Attachment
                                                                      Page 18 of 23

the accounting principles used and significant estimates made by management;
(3) evaluated the overall presentation of the financial statements; (4) obtained an
understanding and performed limited tests of internal controls related to financial
reporting, compliance with laws and regulations, and performance measures; and
(5) tested compliance with selected provisions of certain laws, including FFMIA.
We did not evaluate all internal controls relevant to operating objectives as
broadly defined by FMFIA, such as those controls relevant to ensuring that
programs achieve their intended results and that resources are used consistent with
agency missions. We limited our internal control testing to controls over financial
reporting and compliance. Because of inherent limitations in internal controls,
misstatements due to error or fraud, losses, or noncompliance may nevertheless
occur and not be detected.

The Government Accountability Office performed agreed-upon procedures at the
Internal Revenue Service on the excise taxes distributed to the HTF and the
Airport and Airway Trust Fund during FY 2007. The Treasury Office of Inspector
General reported on the effectiveness of controls placed in operation over the
Bureau of Public Debt Trust Fund Management and Federal Investments branches
for the period August 1, 2006, to July 31, 2007, and attained management’s
assurance on the effectiveness of controls through September 30, 2007. The
Treasury Office of Inspector General also reported on selected schedules of assets
and liabilities of the HTF and the Airport and Airway Trust Fund prepared by the
Bureau of Public Debt Trust Fund Management Branch, as of and for the year
ended September 30, 2007.

We did not test compliance with all laws and regulations applicable to DOT. We
limited our tests of compliance to those laws and regulations required by OMB
audit guidance that we deemed applicable to the DOT Consolidated Financial
Statements for the years ended September 30, 2007, and September 30, 2006. We
caution that noncompliance may occur and not be detected by these tests and that
such testing may not be sufficient for other purposes.

The Chief Financial Officers of DOT and each Operating Administration have
been assigned the responsibility to address the deficiencies identified in this report.
Management’s response to the findings and recommendations in this report is
contained in the Appendix.

We performed our work in accordance with Generally Accepted Government
Auditing Standards and OMB Bulletin 07-04, “Audit Requirements for Federal
Financial Statements.”




Exhibit B. Objectives, Scope, And Methodology
                                                              Attachment
                                                            Page 19 of 23

EXHIBIT C. STATUS OF PRIOR YEAR FINDINGS

                                      As Reported           As Reported
             Issue                 September 30, 2006    September 30, 2007
   Timely Processing of and       Material Weakness      Material Weakness
   Accounting for the FAA
   Construction-in-Progress
   Transaction
   HTF Agencies’ Financial        Material Weakness      Several deficiencies
   Management, Reporting,                                corrected; Journal
   and Oversight Activities                              Entries and Analysis
                                                         of Account
                                                         Relationships
                                                         continue as Significant
                                                         Deficiency; FTA Grant
                                                         Accrual is reported as
                                                         a separate Significant
                                                         Deficiency
   Reporting of Earmarked         Reportable Condition   Corrected
   Funds for FTA
   Financial System Controls      Reportable Condition   Significant Deficiency
   DOT Information Security       Reportable Condition   Significant Deficiency
   Program
   Intragovernmental              Reportable Condition   Management Letter
   Transactions
   Deobligating Unneeded          Reportable Condition   Management Letter
   Funds in the HTF Agencies
   FAA Grants Management          Reportable Condition   Corrected
   Federal Financial              Noncompliance          Noncompliance
   Management Improvement
   Act of 1996
   Antideficiency Act             Noncompliance          Noncompliance
   Improper Payments              Noncompliance          Noncompliance
   Information Act of 2002




Exhibit C. Status of Prior Year Findings
                                                           Attachment
                                                         Page 20 of 23

EXHIBIT D. FINANCIAL-RELATED REPORTS

        Report Title             Report Number       Date Issued
Audit of Special-Purpose        FI-2007-011      November 17, 2006
Financial Statements for
Fiscal Years 2006 and 2005
Oversight of Airport            AV-2007-014      December 13, 2006
Improvement Program
Hurricane Grants
Inspector General Review of     FI-2007-029      February 1, 2007
Fiscal Year 2006 Drug
Control Funds
Emergency Transportation        FI-2007-030      February 5, 2007
Services Contract: Lessons
Learned from the 2005 Gulf
Coast Hurricanes
Opportunities to Free Up        MH-2007-037      March 6, 2007
Unneeded FHWA Funds for
Use in Hurricane Recovery
Efforts
Value Engineering in FHWA’s     MH-2007-040      March 28, 2007
Federal-Aid Highway Program
FTA Procedures to Prevent       FI-2007-047      May 15, 2007
Antideficiency Act Violations
More Incurred-Cost Audits of    FI-2007-064      August 29, 2007
DOT Procurement Contracts
Should Be Obtained
Review of Congressional         AV-2007-066      September 7, 2007
Earmarks Within Department
of Transportation Programs
Quality Control Review of the   QC-2007-072      September 13, 2007
Report on Controls Over the
Enterprise Service Center’s
Delphi Financial Management
System
FAA’s Oversight of Inactive     AV-2007-073      September 13, 2007
Airport Improvement Program
Grant Obligations
Growth in Highway               CR-2007-079      September 26, 2007
Construction and
Maintenance Costs




Exhibit D. Financial-Related Reports
                                                          Attachment
                                                        Page 21 of 23

      Report Title              Report Number       Date Issued
Information Security          FI-2008-001       October 10, 2007
Program at the Department
of Transportation
Prioritization of Airport     AV-2008-002       October 26, 2007
Improvement Program
Funding
Quality Control Review of     QC-2008-005       November 9, 2007
Audited Financial
Statements for Fiscal Year
2007 and Fiscal Year 2006:
Federal Aviation
Administration
Quality Control Review of     QC-2008-006       November 9, 2007
Audited Financial
Statements for Fiscal Year
2007 and Fiscal Year 2006
Highway Trust Fund
Quality Control Review of     QC-2008-007       November 9, 2007
Audited Financial
Statements for Fiscal Year
2007 and Fiscal Year 2006:
Saint Lawrence Seaway
Development Corporation
Quality Control Review of     QC-2008-010       November 13, 2007
the Audited Financial
Statements for Fiscal Year
2007 and Fiscal Year 2006
FAA Franchise Fund
Top Management                PT-2008-008       November 15, 2007
Challenges




Exhibit D. Financial-Related Reports
                                                                       Attachment
                                                                     Page 22 of 23


APPENDIX. ASSISTANT SECRETARY FOR BUDGET AND
PROGRAMS/CHIEF FINANCIAL OFFICER RESPONSE TO
AUDIT REPORT


                                November 13, 2007


MEMORANDUM TO:              Calvin L. Scovell, III
                            Inspector General


FROM:                       Phyllis F. Scheinberg

SUBJECT:                    Management Response to the Audit Report
                            on Consolidated Financial Statements for
                            Fiscal Years (FY) 2007 and 2006


The Department is pleased to respond to your audit report on the Consolidated
Financial Statements for FYs 2007 and 2006. We are very proud of the
exceptional advancements that our Operating Administrations have made over the
last year.

This year’s audit concluded that DOT’s consolidated financial statements are
fairly presented in all material respects in conformity with generally accepted
accounting principles.

We concur with the one material weaknesses and four significant deficiencies
described in your report. Corrective action plans are being developed to address
the findings in your report and will be forwarded to you by December 28. Our
consolidated action plans will also address the findings in the audits of the Federal
Aviation Administration (FAA) and the Highway Trust Fund (HTF) agencies.

This year the Department made significant progress in resolving long-standing
financial management internal control issues, including the following highlights:

 The qualification on the FAA’s FY 2006 audit opinion due to their
  Construction In Progress (CIP) account was lifted as a result of a
  comprehensive program of project-by-project reviews conducted by the FAA.



Appendix. Assistant Secretary for Budget and Programs/Chief
Financial Officer Response to Audit Report
                                                                     Attachment
                                                                   Page 23 of 23

   During FY 2008, the FAA will complete the remaining corrective actions in
   this area.

 The HTF agencies have eliminated the FY 2006 material weakness in financial
  reporting and oversight. During FY 2007 they significantly strengthened
  financial management processes and controls. This is the first audit year that
  no material weaknesses have been reported in the HTF audit. The Office of
  Management and Budget (OMB) has eliminated the requirement for the stand-
  alone HTF audit in the future; therefore, this is the last year that it will be
  conducted.

 Significant progress was also made on DOT’s implementation of the Improper
  Payments Information Act (IPIA). In FY 2007, the Department developed
  improper payment rates for the Federal-Aid Highway Program, the Airport
  Improvement Program, and the Transit Formula Grants Program. The
  Department also developed and tested a model for determining the amount of
  improper payments in the Transit Capital Investment Grants Program. Per our
  agreement with OMB, DOT will be continuing a comprehensive IPIA program
  in FY 2008.

 This year the Department completed its comprehensive two-year
  implementation
  of OMB Circular A-123, Management’s Responsibility for Internal Control.
  During
  FY 2007 DOT assessed our control environments and documented and tested
  the
  final seven key business processes. We are planning our A-123 program for
  FY 2008 while we continue to resolve the findings identified by our testing.

We agree with your recommendations and will use them to develop and
implement corrective actions. We will continue to work closely with the Operating
Administrations and the audit workgroups to ensure that the Department further
improves financial management in FY 2008.

I would like to express my sincere appreciation for the cooperation and
professionalism displayed by your staff and your contractors during the course of
the audit. Please refer any questions to Laurie Howard, Director of Financial
Management, at (202) 366-2135.




Appendix. Assistant Secretary for Budget and Programs/Chief
Financial Officer Response to Audit Report
